<html>
<title> - BOKO HARAM: THE ISLAMIST INSURGENCY IN WEST AFRICA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
           BOKO HARAM: THE ISLAMIST INSURGENCY IN WEST AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2016

                               __________

                           Serial No. 114-140

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                                _________ 
                                 
                 U.S. GOVERNMENT PUBLISHING OFFICE
  98-829 PDF              WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001

                       
                       
                       
                       

                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York



                                  (II)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Jennifer G. Cooke, director, Africa Program, Center for 
  International and Strategic Studies............................     4
Ms. Alice Hunt Friend, adjunct senior fellow, Center for New 
  American Security..............................................    15
Daveed Gartenstein-Ross, Ph.D., senior fellow, Foundation for 
  Defense of Democracies.........................................    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Jennifer G. Cooke: Prepared statement........................     7
Ms. Alice Hunt Friend: Prepared statement........................    18

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Statement of Mr. Jacob Zenn, 
  fellow, African and Eurasian Affairs, The Jamestown Foundation.    46


           BOKO HARAM: THE ISLAMIST INSURGENCY IN WEST AFRICA

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2016

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions, and extraneous materials for the record subject to 
the length limitation in the rules. I will make my opening 
statement at this time.
    Boko Haram has killed thousands throughout its reign of 
terror in Nigeria and neighboring countries. They strap bombs 
to little girls and send them into public markets to act as 
suicide bombers. On the screen in front of each member and the 
panel, there is a map of Nigeria. There are mostly Christians 
in the south, Muslims in the north, and while the vast oil 
reserves prop up the economy of the country, the economy in the 
north is bad. It has little natural resources, has bad 
infrastructure, some say lots of corruption.
    For years, the north has felt neglected. So when Boko Haram 
started in 2002 it was able to tap into that sense of 
disenfranchisement and frustration with government. Boko Haram 
means ``Western education is sinful.'' The goal is to create an 
Islamic caliphate in West Africa along the lines of ISIS' 
caliphate in Iraq and Syria, and they will violently do 
anything to achieve the goal.
    Boko Haram, like ISIS, tell Christians to convert or die. 
Christian women are forced to marry them and convert to Islam. 
Christians have seen their schools burned to the ground, some 
schools burned to the ground with the children inside. Their 
homes are targeted, their churches are destroyed because they 
are Christians. We all remember the kidnapping of close to 300 
schoolgirls, now almost 2 years ago, in April 2014. Many of 
those girls were reportedly forced to convert to Islam and they 
are still missing. There are growing concerns that Boko Haram 
might have forced some of these girls to carry out suicide 
attacks.
    Throughout 2014, the terrorist group successfully seized 
huge amounts of territory in northeastern Nigeria. Most of us 
are not familiar with how big Nigeria is, but Boko Haram is 
holding territory roughly the size of Belgium. To take in more 
territory, Boko Haram killed by the thousands, in 2014, Boko 
Haram killed nearly 7,000 people--murdered is a better word 
than killed--making them the deadliest terrorist group in the 
world, even surpassing ISIS.
    Boko Haram pledged allegiance to ISIS in 2015 and rebranded 
its state as the Islamic State's West Africa Province. Boko 
Haram has overextended itself, however, when it tried to hold 
territory in Nigeria and other West African militaries were 
destroying it in 2015. Boko Haram was forced to give up on 
holding territory, but it has not been defeated. Boko Haram is 
still capable of launching deadly attacks throughout the Lake 
Chad Basin. My staff has tracked these attacks. There is hardly 
a day that goes by that there is not some sort of Boko Haram 
attack that kills innocent people.
    Over the past few years, relations between Nigeria and the 
United States have been strained. Joint military trainings were 
cancelled and the U.S. hesitated to supply weapons to Nigeria's 
military citing other concerns about human rights abuses. The 
United States took 11 years to designate Boko Haram as a 
foreign terrorist organization, then on November 12th, 2013, 
ironically, the night before this subcommittee and the African 
Subcommittee had a joint hearing on Boko Haram on why it was 
not on the FTO list, State Department called to say it was 
going to designate the organization and put them on the Foreign 
Terrorist Organization list.
    That is an important step, but there are questions about 
the implementation of the designation. It does not seem that 
all the tools that this designation carries are being brought 
to bear on the group, especially when it comes to stopping the 
financing of Boko Haram.
    The United States has started to do more to help Nigeria 
combat Boko Haram since the election of Nigerian President 
Buhari in May 2015. Infantry training has restarted and we are 
seeing an increased level of cooperation between AFRICOM and 
Nigerian military. In October, the administration announced 
that it was sending troops and drones to Cameroon as well as 
surveillance aircraft to Niger, but like the FTO designation, 
these are steps that should have been taken years ago before 
Boko Haram was allowed to murder more people than ISIS.
    We must do more to support our African partners to stamp 
out this Islamic radical menace once and for all. The fighting 
against Boko Haram is essential to U.S. national security 
interests. In ISIS, we have already seen what happens when we 
underestimate a terrorist group. Boko Haram may not have the 
capability to attack the United States today, but neither did 
al-Qaeda in the years prior to 9/11. This hearing will help 
expose this deadly assault Boko Haram has committed against 
civilized peoples, and I will yield to the ranking member, Mr. 
Keating, from Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman, for conducting this 
important hearing, and I would like to thank our witnesses for 
being here today as well.
    While it was the heinous and vicious kidnapping in 2014 of 
276 schoolgirls from their dormitory in Chibok that first 
brought Boko Haram to the attention of much of the world, we 
know all too well that this group is responsible for the deaths 
of thousands of men, women and children since 2003. In fact, in 
2014 alone, Boko Haram was responsible for approximately 7,000 
deaths which is higher than the amount attributed to ISIL. ISIL 
killed, by comparison, 6,073 in 2014.
    In order to study, understand, and successfully combat Boko 
Haram, I believe we should view and respond to them as both an 
insurgency and as a terrorist organization. At its heart, Boko 
Haram is fed on the poverty, unemployment and 
disenfranchisement in the northeast part of Nigeria and 
surrounding areas as well, accumulating territory and widening 
its influence. The northeastern regions where Boko Haram has 
celebrated significant territorial gains is largely Muslim and 
trails the southern part of the country, which is largely 
Christian, in the scope of education and wealth.
    Since its establishment, Boko Haram has existed to 
marginalize Nigeria's Muslim population and delegitimize its 
government. Recent years have borne witness to its graduation 
from smaller rudimentary attacks to targeting Nigerian 
Government to a full scale assault on Westernization and 
governance in Nigeria as well, with both Muslims and Christians 
among the victims of Boko Haram's terrorism.
    Since 2009, Boko Haram has played a direct harmful role in 
destabilizing Nigeria. Its violent campaign against the 
government has left parts of the country in ruins. Nearly 1 
year ago, in early March 2015, Boko Haram's leader pledged 
allegiance to the Islamic State which led to the creation of 
the Islamic State's West Africa Province. Boko Haram has long 
been linked to other terrorist organizations in Africa, 
including al-Qaeda, and this shift in the allegiance could be 
interpreted as a quest for increased recruitment and 
fundraising opportunities.
    It is clear that Boko Haram's activities are at the heart 
of a broader regional crisis. The group has expanded its 
operations into neighboring Cameroon, Chad, Niger, and since 
2014, these countries have increasingly been subject to attacks 
by this group. This instability has led to unprecedented food 
shortages and child malnutrition. According to the United 
Nations, more than 5.6 million people are facing a food crisis 
in Nigeria and bordering countries.
    While there has been more than successful efforts at the 
local level and efforts to combat Boko Haram, much work is 
still needed to restore peace and provide for the millions of 
people impacted by this devastation. This includes internal 
efforts to root out corruption within the government and 
military, protect and advance cooperation on human rights 
practices, and to revitalize subjugated regions within the 
country as well as establishing a Multinational Joint Task 
Force to combat the threat of the Islamist insurgency in West 
Africa.
    Finally, I am grateful for the work of many of my 
colleagues led by Africa, Global Health, Global Human Rights, 
and International Organizations' groups as well, Subcommittee 
Ranking Member Karen Bass of California, Nigerian Caucus Chair 
Sheila Jackson Lee, and Representative Frederica Wilson, who 
advanced the regional strategy to eliminate the threat of Boko 
Haram and provide humanitarian relief to the affected regions. 
All three of these congresswomen have personally met with 
Nigerian officials and even traveled to the region to raise 
awareness through Bring Back Our Girls campaign.
    These efforts have made real gains in promoting equal 
access to education, economic opportunity for women and girls, 
and I look forward to hearing from our witnesses today on 
existing efforts by the Nigerian Government and regional task 
force where there must be increased focus and increased 
attention. Thank you, Mr. Chairman. I yield back.
    Mr. Poe. Mr. Higgins, do you want to make an opening 
statement?
    Mr. Higgins. I am good. Go to the panel.
    Mr. Poe. All right. So without objection, all the 
witnesses' prepared statements will be made part of the record. 
I ask that each witness keep their presentation to no more than 
5 minutes. And just so you know, it is going to get cooler in 
here because the expert just showed up.
    I will introduce each witness and give them time for 
opening statements. Jennifer Cooke is the director of the 
Africa Program at the Center for Strategic and International 
Studies. She also manages a range of projects on political, 
economic and security dynamics in Africa.
    Ms. Alice Hunt Friend is an adjunct senior fellow at the 
Center for New American Security. She previously served as the 
principal director for African Affairs in OSD Policy where she 
focused primarily on Libya, South Sudan and the Great Lakes 
region.
    Dr. Daveed Gartenstein-Ross is a senior fellow at the 
Foundation for Defense and Democracies. We thank him for 
substituting for Mr. Jacob Zenn who is unable to make it from 
Nigeria, and especially the short notice that you came in on. 
Dr. Gartenstein-Ross did not provide a written testimony but 
will speak to us about Boko Haram broader counterterrorism 
issues in Africa.
    Ms. Cooke, we will start with you and you have 5 minutes.

 STATEMENT OF MS. JENNIFER G. COOKE, DIRECTOR, AFRICA PROGRAM, 
         CENTER FOR INTERNATIONAL AND STRATEGIC STUDIES

    Ms. Cooke. Thank you, Mr. Chairman and Ranking Member 
Keating and members of the subcommittee. Thank you very much 
for the opportunity to testify today on Boko Haram. This 
hearing could not be more timely or important. My testimony 
today draws substantially on recent travel in January to 
Maiduguri in northeast Nigeria, to Abuja and Niamey, and 
earlier travel to Northern Mali and Senegal.
    I would like to make two broad points. The first is on the 
urgency of the situation. Why is it such an important moment 
for the United States to engage and amplify its support against 
Boko Haram, and second, what should be some of the priority 
areas for U.S. support.
    So why the urgency? Nigeria and the governments of the 
region have unquestionably made important progress against Boko 
Haram. The group is largely being routed from territorial 
control, thousands of members and a number of its senior 
leaders have been captured or killed, thousands of women and 
girls have been rescued from brutal captivity, and the groups 
media operation, significant weapon in the terrorist arsenal, 
has gone largely quiet. That progress is real. It should be 
acknowledged and supported.
    But it is cold comfort for the victims and families of Boko 
Haram's most recent attacks and the many communities and 
displaced persons in northeast Nigeria and the broader Lake 
Chad Basin region. These communities remain vulnerable to 
asymmetrical attacks, and eliminating the capacity for these 
attacks would be much more difficult than a territorial rout.
    The regional and global context makes this an even more 
critical moment for decisive action to prevent Boko Haram from 
regenerating or a successor group from taking its place. Every 
effort should be made to ensure that the Lake Chad region and 
the Sahel, more broadly, do not become proxy battleground for 
al-Qaeda and ISIL or broader ideological coalitions.
    Boko Haram and other Sahelian extremist groups have a long 
record of dynamism and opportunism. Alliance amongst these 
groups that include training, weaponry tactics are dangerous, 
but growing rivalries between them could prove equally 
dangerous. Boko Haram, as you have said, pledged allegiance to 
ISIL last year. At the same time, al-Qaeda's Sahelian 
affiliates, al-Qaeda in the Islamic Maghreb, al-Mourabitoun and 
others, have reasserted themselves with high profile attacks in 
Bamako and Ouagadougou. After being temporarily on the 
defensive and losing ground to the ISIL brand, the quest for 
notoriety and one-upmanship among these various jihadist groups 
will have tragic human costs.
    The entrenchment of ISIL in Libya adds to the urgency. 
ISIL's rising profile right now is a magnet for many fighters. 
Security forces have intercepted militants traveling from 
Nigeria, Niger, Chad, Mali, into Libya and we know that some 
have successfully managed to get to the front lines. Political 
stabilization and military intervention against ISIL in Libya 
may be good for Libya, but it will almost certainly drive these 
fighters back out into the region more battle hardened, better 
armed, and more ruthless than before.
    I am going to quickly move to priorities, areas for 
engagement. We know that a long term, comprehensive approach 
that puts economic opportunity and education at the center will 
be important, but it is not the time for that. We don't have 
the degree of normalcy that allows that. Those need to be 
started with urgency, but we need some immediate steps before 
that can fully happen.
    Help prevent Boko Haram from regenerating. Essential to 
preventing regeneration of Boko Haram will be cooperation among 
Nigeria and its regional neighbors to block supply routes and 
exfiltration, eradicate rear bases and training camps, and 
share intelligence on movements of weaponry and supplies. The 
Multinational Joint Task Force is being riven by rivalries and 
recriminations. U.S. has to pressure those countries to come 
together for genuine cooperation.
    Blocking the financial supply routes, critically important. 
U.S. should mobilize significant resources to this end through 
the Department of Treasury's Terrorist Financing Tracking 
Program, building the capacity of Nigeria and others to do the 
same.
    Third is to support an off ramp for Boko Haram fighters 
that makes surrender a more attractive option. They are not all 
there for their own will. Many of are being coerced, many 
including women are being kidnapped and indoctrinated. The U.S. 
State Department and USAID should support Nigerian efforts to 
help sort these many fighters, fast track them through a 
judicial process and provide programming for reintegration, 
deradicalization where possible.
    The second big area is to support civilian protection and 
welfare. We have to support the capacity and professionalism of 
regional forces--more engagement not less. I know that human 
rights abuses by the Nigerian military have been a sticking 
point in U.S.-Nigerian military engagement. The U.S. Government 
should continue to press for accountability, but it should also 
recognize that appropriate training and equipment can help 
mitigate the possibility of human rights abuse. As Nigerian 
troops have become more competent and better equipped, 
incidents of abuse have diminished. Boko Haram has killed more 
civilians in the last year than ISIL and it is not a good time 
to deny regional forces the access to the critical equipment 
that they need.
    My final point is to support internally displaced people 
and Boko Haram surviving victims. Some 3 million people in the 
region have been displaced because of Boko Haram. The vast 
majority are in Nigeria, but in the surrounding region as well. 
There is little certainty on when they will be able to return 
to their homes. The international community along with Nigerian 
Government and citizens need to rally to support these 
displaced communities ensuring that the many children among 
them are given the education and services they need to thrive 
and to eventually help rebuild the northeast region.
    Finally, the fate of these 219 girls kidnapped by Chibok 
remains an enduring and tragic mystery and the effort to locate 
and recover them should be sustained and supporting. But there 
are thousands of girls and women who have escaped and been 
rescued from captivity who have endured unthinkable brutality 
and trauma and they should not be neglected. The U.S. 
Government and indeed the American people should support and 
amplify the efforts of Nigeria and the region to give these 
survivors the psychosocial, economic and moral support that 
they very well deserve. Thank you very much. I will leave it at 
that and welcome your questions.
    [The prepared statement of Ms. Cooke follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    
                         ----------                              

    Mr. Poe. Well, you are going to get those in a minute.
    Ms. Friend, I recognize you for your opening statement. 
Thank you.

  STATEMENT OF MS. ALICE HUNT FRIEND, ADJUNCT SENIOR FELLOW, 
                CENTER FOR NEW AMERICAN SECURITY

    Ms. Friend. Thank you, Chairman Poe. Chairman Poe, Ranking 
Member Keating, members of the subcommittee, it is an honor to 
be here today to participate in the important ongoing 
discussion of the threat Boko Haram poses to Nigeria and the 
wider West African region. Throughout its almost 14-year 
history, Boko Haram has proven to be a ruthless and resilient 
organization, and it is wise to continue taking the threat the 
group poses seriously despite its recent setbacks.
    Since early 2015, Nigeria, joined by a multinational 
coalition has prosecuted an offensive against Boko Haram that 
has deprived the group of its territorial control and degraded 
its capacity to confront national security forces directly. 
This is the second retreat for the group since 2002 and 
demonstrates its comparative weakness when confronted with a 
well organized and determined military force.
    In an insurgency, however, the offense often has the 
advantage. Battered but undeterred, Boko Haram has turned again 
to asymmetric tactics and a rich array of targets. The group 
terrorizes public spaces that are notoriously difficult to 
secure such as markets and transit depots, attacks often 
feature multiple coordinated bombings and increasingly rely on 
kidnapped women and girls wearing suicide vests. These strikes 
have succeeded in reestablishing the group's pre-2015 daily 
tempo of casualties, killing and injuring upwards of 50 to 100 
people in an average attack. A mix of attacks on urban and 
rural areas gives the population a sense that there is no 
refuge from Boko Haram's reign of terror.
    Despite their continued ability to menace daily life in the 
northeast, just how large and capable the group is today 
compared to late 2014 is difficult to assess. Boko Haram's 
remaining members seem to be scattered throughout the Nigerian 
countryside and the border regions with Chad, Niger, and 
Cameroon. Their use of kidnapped women to exercise suicide 
attacks, while tactically advantageous, also suggests a 
shrunken supply of adult male foot soldiers. The group has been 
reduced to ambushes along rural roads in lieu of territorial 
control.
    Perhaps as a way to distract from its battlefield losses, 
in March of last year Boko Haram's leader, Abubakar Shekau, 
publicly declared the group's allegiance to the Islamic State. 
The practical effect of this allegiance is unclear so far. 
There is some evidence that the Islamic State may have 
attempted to support earlier improvements to Boko Haram's media 
campaign, but there are fewer signs of financial support of 
capacity building flowing to the West African affiliate. Some 
analysts speculate that the alliance largely served propaganda 
purposes for both groups making the Islamic State look like it 
was expanding even under intense pressure in the Middle East, 
and making Boko Haram look relevant to the global Islamist 
terrorist network.
    Upon his election in 2015, Nigeria's new President, 
Muhammadu Buhari, pledged to defeat Boko Haram by the end of 
the year and took several actions to advance toward this goal 
including ostensibly increasing resources for military 
personnel after years of underinvestment. At the same time, the 
Buhari administration has announced renewed efforts to 
investigate and prosecute military violations of human rights 
and corruption. It is unclear how far these anti-corruption 
efforts aimed at the security services will truly go, but 
Buhari's efforts to date represent long overdue steps in the 
right direction.
    Nigeria's revitalization of its counterterrorism operations 
has been aided by a regional and international push for 
collaboration to combat the threat. In the wake of the Chibok 
schoolgirl kidnappings in 2014, Benin, Chad, Cameroon, Niger 
and Nigeria agreed to reactivate a longstanding but disused 
Multinational Joint Task Force structure. The MNJTF's tasks 
include targeted operations against Boko Haram, capturing 
members of the terrorist group, border security, recovery of 
abductees, regional coordination and intelligence sharing. 
Unfortunately, the MNJTF has had an uneven start with budget 
and troop shortfalls and limited coordination efforts leading 
to questions about the task force's sustainability.
    Task force members focus largely on their own border 
regions and it is unclear how much tactical, operational, or 
strategic level coordination actually occurs. Nevertheless, 
real operational gains have resulted from the combined, if not 
entirely coordinated, efforts. Just yesterday, for example, 
Nigerian and Cameroonian forces carried out a successful joint 
operation that reportedly resulted in 20 Boko Haram casualties 
and a rescue of 150 captives.
    Beyond these immediate security efforts, the conflict has 
displaced upwards of 2 million people, many of whom are 
children. This glut of refugees and the challenges behind 
reintegrating former Boko Haram captives indicate a 
humanitarian and social crisis that may long outlast the 
fighting.
    In this context, the Nigerian Government must take a strong 
lead in developing the political will and financial commitment 
to provide holistic security in areas ravaged by Boko Haram. 
Such a security plan should include an effective policing 
capacity to protect the population and deny Boko Haram's 
successful attacks coupled with ongoing military operations to 
keep the terrorists on the defensive. Both forces should be 
bolstered by intelligence capabilities and linked to an 
efficient justice sector able to conduct detention operations 
and swift prosecutions according to international legal 
standards.
    All of this must be coupled with a robust development 
program that can provide basic services and infrastructure to 
long neglected communities. Nigeria does not have to do this 
work on its own. International assistance including from the 
United States offers a deep well of resources and expertise to 
the government and Boko Haram's victims.
    Nigeria is a beneficiary of multiple U.S. security 
assistance programs through which the U.S. has recently 
provided communications gear, equipment and armored vehicles. 
The U.S. also supports efforts by other regional partners to 
combat Boko Haram including Niger and Cameroon, and frequently 
consults with European partners to coordinate efforts and share 
information. This broad approach ensures that the counter-Boko 
Haram effort is a diversified and sustainable portfolio of 
investment in regional and international partners.
    But it is important to remember that international support 
efforts can only proceed at the pace set by Nigeria. The U.S. 
recently restarted infantry battalion training after a long 
hiatus with plans to build on such engagements and ongoing 
evaluations of Nigerian equipment requests. Continued 
accusations of human rights violations by Nigerian security 
forces and Nigerians' own concerns about protecting its 
sovereignty mean that all external support is preceded with 
careful and mutual evaluations of both sides' intentions. These 
engagements are complex but must continue in order to sustain 
pressure on Boko Haram. The U.S. and other Nigerian partners 
should continue to point out the connections between government 
conduct in the north and the resilience and support of the 
local communities sustaining an upper hand against Boko Haram. 
Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Friend follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you very much.
    Dr. Gartenstein-Ross, it is your turn.

  STATEMENT OF DAVEED GARTENSTEIN-ROSS, PH.D., SENIOR FELLOW, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Gartenstein-Ross. Thank you, Chairman Poe, Ranking 
Member Keating, and distinguished members. As Chairman Poe 
mentioned, I was a last-minute addition to this panel, 
substituting in for Jacob Zenn whose written statement, I 
think, is very granular, and I very much recommend.
    I think the previous two statements do a very good job of 
providing, in detail, the situation on the ground, so what I 
want to do is take a somewhat broader look at the question of 
where is Boko Haram today compared to where it was in the past, 
and what do we need to do to more effectively address not just 
Boko Haram but the challenge of other militant groups as well?
    Ms. Friend referred to previous Boko Haram retreats. You 
can tabulate them in different ways. I count personally at 
least two since 2009. One of them in '09 is when Boko Haram was 
essentially defeated. Its leader Mohammed Yusuf was killed, and 
around 1,000 members were killed during that period. It was 
scattered and relied upon primarily al-Qaeda and the Islamic 
Maghreb, but also al-Shabaab in Somalia to help it regenerate. 
In 2013, the Nigerian Government launched an offensive starting 
in May against Boko Haram which also pushed it back, though not 
as significantly.
    I think that, right now, Boko Haram is more vulnerable than 
what it was in 2013. President Buhari has more of a political 
incentive to maintain the Boko Haram than there was back in 
2013. You have multiple states' militaries going after the 
militant group.
    And a third thing is we have talked about the defection to 
the Islamic State. Now there is problems with the defection 
from our perspective, but also there is some opportunity. I 
think it makes them more vulnerable, because previously Boko 
Haram, when it was part of the al-Qaeda network, its major 
source of strength outside of Nigeria was in Mali. Today its 
major source of strength is in Libya which is further away. It 
was much easier for them to use surrounding territories when 
they were part of the al-Qaeda network.
    But the question really is, how effectively will we take 
advantage of this opening of these vulnerabilities and craft a 
solution? One sad conclusion that I have reached is that we as 
a government are just not very good at fighting against violent 
non-state actors. If you look at our record over the past 
decade and a half when this was a top strategic priority, we 
have not been effective. In the 21st century you have perhaps 
only two major violent non-state actor groups who have been 
defeated. One of them, the LTTE in Sri Lanka which was wiped 
out by the Sri Lankan Government, and the other one being the 
Islamic Movement of Uzbekistan which was wiped out by the 
Taliban in recent months. Overall, we have trouble.
    So what I would point to as some of the source of our 
trouble is that violent non-state actors are very much, they 
are very old in conception, but in other ways they are a 21st 
century problem. If you look at the 20th century, it is what I 
call the Westphalian moment when the state system inscribed in 
the Peace of Westphalia was so dominant that non-state actors 
who were launching insurgencies or who were nationalist 
terrorist groups couldn't think of any other way to be. They 
wanted to be states, ranging from the anti-Colonial 
insurgencies to terrorist groups like the IRA, the LTTE, 
Palestinian terrorist groups, the ETA, all of these wanted to 
be states. In the 21st century you are seeing groups like ISIS, 
Boko, al-Qaeda, which are able to do many things states do--
provide services, govern. They don't want to have any part of 
the state system.
    I would analogize this to what we are seeing in the 
economics sphere because it is a very similar situation. In the 
economic sphere, going to the very end of the 20th century, 
conventional wisdom was that bigger was better; that when 
Blockbuster came into town it was going to drive your local 
video store out; that bookstores like Borders would be able to, 
with their megastores, dominate local markets. But these 
businesses failed to adapt to changing circumstances. They were 
too bureaucratic, too slow to adjust strategically. Borders 
didn't even have a Web site until 1998, 3 years after Amazon 
launched. When it finally put together its own e-reader to 
compete with Kindle, they made people come into the store to 
actually go to a download station which defeated the purpose of 
online shopping.
    That is what our Government is. We are very slow to adapt. 
Violent non-state actors are like start-ups in the political 
organizing sphere. They have the same advantages. They are able 
to adapt strategically, quickly, they don't face our 
bureaucracy, and part of the move of ISIS into Africa, part of 
that story is ISIS actually convincing the media that they 
controlled a city in Libya that they didn't, the city of Derna.
    They control Sirte today, but at the time that BBC, CNN and 
others reported on ISIS' control of Derna, which helped show 
Boko how strong ISIS was, they did not control Derna. And one 
thing that was frustrating for me in talking to multiple people 
within the U.S. Government was that there was no one in place 
to puncture this myth, and it was bad for us. It was bad for us 
that they were able to sustain this myth.
    So looking at, I would say part of what we should be 
talking about, we should be talking about the policy solutions 
put forward here because these are very good, and as was said 
by Ms. Cooke, there is a sense of urgency. We need to act. But 
at the same time we have to think about our organizational 
structure, because many of the problems that we confront 
systemically in this area come down to lack of coordination, 
inefficient contracting rules, and not having the right people 
in place for this.
    We need to, just like big industries have adapted by 
understanding the principles of their competitors we need to do 
the same thing, because we have an organizational structure 
that is not well suited for 21st century challenges. Thank you.
    [Mr. Gartenstein-Ross did not submit a prepared statement.]
    Mr. Poe. I thank all of our witnesses. I recognize myself 
for 5 minutes of questions. Boko Haram was established in 2002. 
We had a hearing in 2013 wanting to know why they weren't part 
of the Foreign Terrorist Organization. The day before the 
hearing, ironically, the State Department designated them as a 
Foreign Terrorist Organization. That brings with it certain 
status that we supposedly as a nation focus on that 
organization because they are a Foreign Terrorist Organization.
    My question to you, has anything happened to Boko Haram 
because they are now a Foreign Terrorist Organization? Have we 
imposed any of the things we can do such as sanctions and going 
after the finances against Boko Haram since that? Any of you 
want to weigh in on that? Ms. Cooke?
    Ms. Cooke. Sure. I think because of the nature of Boko 
Haram at that time and the fact that it doesn't bank in the 
United States, its members don't travel to the United States, 
it doesn't bank through formal institutions, I think some of 
the tools of the Foreign Terrorist Organization declaration 
weren't particularly helpful and didn't add a great deal except 
perhaps drawing greater U.S. policymaker attention to the 
group.
    I think now, now that the Nigerian Government itself has 
made cutting the group's financial sources a priority and 
President Buhari mentioned that in his inaugural address and we 
know that the group has expanded its regional connections, I 
think this is a moment where we can bring those tools much more 
into play to assist the Nigerians in doing that. That has to be 
done in coordination with other international and regional law 
enforcement agencies and financial institutions. That is a 
vital priority in preventing their eventual regeneration.
    Mr. Poe. The Boko Haram has a reputation, and I think it is 
based on facts, unfortunately, of targeting young women, 
Christian women, and either forcing them to convert or pay the 
consequences of sex slavery or murder. Is this a fundamental 
principle of this specific terrorist organization? Dr. Ross, do 
you want to weigh in on that?
    Mr. Gartenstein-Ross. It is a fundamental principle of a 
number of different jihadist organizations. It is a fundamental 
principle of Boko Haram. ISIS also has done the same thing if 
you look at their treatment of Yazidis. And if you look at the 
Nusra Front, which is al-Qaeda's affiliate in Syria, they also 
have a forced conversion program that they have imposed upon 
the Druze sect, which I read about in Foreign Affairs last 
year. So the answer is an unequivocal yes.
    Mr. Poe. The activity of murdering folks, young females, 
Christians, would that in your opinion, any of you, fit the 
definition of genocide? Ms. Cooke, yes or no?
    Ms. Cooke. Well, I think they are less, they are 
indiscriminate in their attacks and we have to acknowledge that 
many, many of their victims, and perhaps the majority, have 
been Muslims who equally are forced to adapt this much, this 
very foreign version of Islam. So I don't know that that label 
applies in this case.
    Mr. Poe. Okay. Anybody else?
    Mr. Gartenstein-Ross. I believe it applies, and much more 
so in Iraq and Syria where you actually have governance. Boko 
Haram's most recent experience with governance in Borno was 
very short-lived, so you didn't get to see the program get 
borne out. But the definition of genocide is intent to destroy 
in whole or in part. And that is absolutely what ISIS did to 
the Yazidis. It is absolutely what right now Nusra is doing to 
the Druze. And it, in my view, absolutely applies to what is 
being done to the Christians as well.
    You can see ISIS' cancellation of the jizya, which is the 
tax that non-Muslims who are concerned People of the Book can 
pay to continue practicing their religion, they cancelled the 
jizya in Mosul thus causing all Christians to flee the city. In 
my view it is actually unequivocal.
    It is absolutely correct what Ms. Cooke said that they do 
also target Muslims, but the intent to destroy in my view is 
very clear. They are going to try to subjugate Muslims, but 
groups that are not like them with a few minor exceptions 
including Shia Muslims are groups that they are absolutely out 
to destroy.
    Mr. Poe. Last question. Ms. Friend, you haven't answered 
any of my questions, or I haven't asked you any, but the world 
heard about those girls that were kidnapped and you mentioned 
in your testimony we don't really know what happened to them. 
What happened to them? What do you think happened to them, 
those 200 to 300 girls?
    Ms. Friend. Well, sir, I can only speculate what happened 
to them. And my personal speculation is that some of them were 
sold into human trafficking, some of them were taken on as 
child brides or sex slaves, and I fear that some of them have 
been used in these suicide bombings that we are now hearing 
about. Boko Haram has kidnapped so many children and so many 
people over time that it is very hard to sort out especially in 
suicide bombings who is who, but that is my fear and what makes 
logical sense to me.
    But it is true that, as far as we know, as far as the 
Nigerians know, members of the Joint Task Force that most of 
those girls are still unaccounted for. I believe something like 
57 escaped at the time, so we are looking at closer to 200 
girls that are still missing. But President Buhari recently 
also sounded a note of caution about being able to recover 
them. So even Buhari who is quite optimistic about defeat of 
the Boko Haram is not optimistic about recovery of the girls at 
this point unfortunately.
    Mr. Poe. All right, thank you very much. My time is expired 
and I will yield to the gentleman from Massachusetts for his 
questions.
    Mr. Keating. Thank you, Mr. Chairman. Since Boko Haram's 
pledge of allegiance to ISIL, has that had an effect on its 
recruitment and its retention capabilities? And also, where is 
it getting its financing? Where is it getting its weapons and 
supplies from specifically? You mentioned, I think, Ms. Friend, 
that some of it is selling, the human trafficking gain, 
financial gains from that. But what else, and where is it 
getting the weapons?
    Ms. Friend. Yes, sir. As far as financing goes, Jennifer 
and I were talking about it a little bit before the hearing 
began. Traditionally they got much of their financing through 
extortion, through bank robberies, through looting. Jennifer 
has some more insights, I think, on sort of more recent 
information about where they might be getting more support. But 
those have been their traditional sources. A lot of the kinds 
of attacks that they undertake are not high cost. They use very 
low tech IEDs, for example, so unfortunately a little bit of 
money goes a long way for this group.
    Mr. Keating. A couple of, if I could, a couple of more 
recent developments in the last 2 or 3 months I just want to 
get your opinions on. Number one, in December the Nigerian 
military attacked and killed a number of Shia Muslims in the 
town of Zaria. And do you think that is an indication of future 
trends for sectarian violence, and what is the government doing 
to try and quell the Sunni-Shia tensions?
    Ms. Cooke. I think it is a very good question and there is 
still a lot that is not known about the circumstances of the 
Zaria attack that killed some 400 Shiite Muslims and grievously 
wounded the group's leader Zakzaky. There is an investigation 
underway and that may give more clarity. Senior officials that 
I have spoken to hint at some kind of imminent and dangerous 
threat, but there is not a lot of public discourse on that.
    Mr. Keating. The other thing that I just want to touch 
upon, the last couple of months there have been reports through 
separate media sources about Cameroonians committing human 
rights abuses inside Nigeria. Do you have any comments on that 
and what the effect could be and how legitimate those reports 
are?
    Ms. Cooke. I haven't heard those reports. But in terms of 
the Shiite split, I think that the Nigerian Government needs to 
tread very carefully there. Iran called, President Rouhani 
called President Buhari shortly thereafter. The Saudi Arabian 
king called him shortly thereafter. What you don't want to see 
is some ideological proxy playing out in the north of Nigeria.
    Mr. Keating. That is my fear as well. Ms. Friend?
    Ms. Friend. Sir, if I may add, Nigeria also has had years 
and years of Christian-Muslim violence that is a major problem 
for stability in the country. Going further into sectarian 
violence amongst Muslims plays exactly into Boko Haram's hands.
    And so I completely agree with Jennifer on this case. I 
think the government has to be very careful about this and not 
improve the narrative for Boko Haram while they are at it.
    Mr. Keating. Another concern I had just recently is just 
what is occurring in terms of the shift, if there is a shift at 
all, with President Goodluck Jonathan using private forces, 
mercenaries as well? The President, Buhari, rather, he wanted 
to shift away from that. Is that happening, or is there still 
use of mercenaries at all, and are there difficulties because 
of the use of those mercenaries and having control over them 
and their conduct as well?
    Ms. Cooke. I am one of the people that think, actually, the 
South African contractors actually contributed a good deal to 
better tactics and more sustained and coordinated attacks to 
push Boko Haram out of the territories.
    Mr. Keating. Are they still using those forces?
    Ms. Cooke. They are not still using them and they may 
recur. There may be private contractors brought on again, 
whether it is these same or not. So that is at an end right 
now. That was at a time that the United States, for example, 
did not want to provide certain materiel to the Nigerian 
Government because of human rights abuses.
    Mr. Keating. Well, just quickly, listening to all of your 
testimony, I don't think there is a conflict but it is worth 
commenting on. Ms. Cooke, you mentioned that some of the gains 
we made were with media, and part of that might be quelling 
their ability to do it, but Dr. Gartenstein-Ross mentioned our 
inability to deal with these issues of propaganda or media as 
well. Is there a way to reconcile those two things if indeed 
there is a conflict in your two statements?
    Ms. Cooke. Well, we believe that Abubakar Shekau has been 
taken out and he was--whether 2 years ago followed by imposters 
or just recently--and he was really the center of the media 
propaganda effort. He has not been seen on the scene since 
March. But regeneration will certainly entail a renewal of more 
nimble sophisticated media techniques.
    Mr. Keating. And do you agree with Dr. Gartenstein-Ross 
that we have to do a better job of sort of puncturing the myths 
that are out there?
    Ms. Cooke. Absolutely. We are slower on that online stuff 
than these young militants.
    Mr. Keating. My time is expired. I yield back, Mr. 
Chairman.
    Mr. Poe. I thank the gentleman from Massachusetts.
    Mr. Perry?
    Mr. Perry. Thank you, Mr. Chairman. Ms. Cooke, in your 
opinion, why did it take us so long to designate Boko Haram a 
terrorist organization?
    Ms. Cooke. Well, and I testified before this hearing some 
time back shortly after Boko Haram reemerged after 2009. At 
that time the group was extremely fractured. We didn't really 
have a sense of what was Boko Haram. Nigeria at that time did 
not want it designated an FTO organization, in part because 
there were certain elements within it that it felt that it 
could peel away, and the potential of having talks with certain 
elements within Boko Haram was very popular in Nigeria, across 
Nigeria.
    To my mind, at that time the designation didn't give you 
tools that would make, be more effective. As I said, they don't 
bank in the United States, they don't use banking institutions. 
But what it might have done at that time was give greater 
coherence to a group that was very fractured and ideologically 
and internally divided at that time.
    I think the eventual call was right. But at that time I 
think there is a legitimate difference of opinion on whether it 
should have happened or not. My sense was that, because the 
Nigerian Government didn't want it, because it might have lent 
that greater coherence and brand name to the group, we should 
have postponed it.
    Mr. Perry. I guess I understand. It is in their country and 
they had reservations about it, but in hindsight.
    Ms. Cooke. Well, there is no question----
    Mr. Perry. I mean, you are never going to know, right? You 
are never going to know if we would have designated it earlier 
whether it would have, would it be the advent of the coalescing 
of those desperate portions.
    Ms. Cooke. That is right. But we don't know that it would 
have added any benefit in our fight against Boko Haram since 
the tool is directed at bank accounts, asset freezes, sanctions 
and so forth.
    Mr. Perry. And that is the only thing as you understand it 
in designating----
    Ms. Cooke. Well, I know, but it elevates attention to the 
group at that time.
    Mr. Perry. Right.
    Ms. Cooke. As I said, I think there are legitimate 
differences of opinion. There was a trade-off. There was a 
chance at that time of dividing the group. And eventually as we 
know the designation was given.
    Mr. Perry. So what is the trigger? So we are watching it. 
The government, the local government, state government doesn't 
want them to be designated for whatever they see as legitimate 
reasons. We don't want to increase the visibility and have 
these desperate organizations coalesce, but at what point do we 
say enough is enough? The ends would be that we don't want them 
to be, these groups to become as powerful as this one has 
become and pervasive as it has, so what is the trigger point? 
What do we get out of this model for the next model?
    Ms. Cooke. Well, look, I think in every instance there is 
going to be a debate within the administration with the 
Congress on what makes most sense in that particular very 
unique context. And I don't think there is going to be, there 
is no set trigger point in anything. I think you have to look 
at the totality of the benefits and the potential costs.
    Mr. Perry. So fair enough. Which organizations have we not 
designated or that we have designated a terrorist organization 
that has caused the coalescing? Is there any empirical data? Is 
there anything to say that--these are going to keep springing 
up, right? If it is not here, it is going to be somewhere.
    Ms. Cooke. Well, some people thought that the designation 
of Shabaab kind of came at a poor moment, for example, and kind 
of elevated, gave them a propaganda tool. And as I said, I 
think in retrospect the FTO designation didn't fundamentally 
change how we were dealing with Boko Haram at the time.
    Mr. Perry. So do we need to change what the FTO designation 
means in real terms, what that construct is? Is it just banking 
or is it something--do we need take a look at that looking at--
you were talking about earlier about how our Government--or 
maybe it was you, Dr. Ross, about how we are slow to react 
because of a bureaucracy and so on and so forth, and they are 
very quick to react. So is there something that we need to take 
a look at it in this paradigm that needs to change so that our 
reaction is meaningful in thwarting these organizations?
    Ms. Cooke. Well, I would have to reflect a little bit on 
what that might be. I think recognizing the danger and the 
potential of the group is important, and if the FTO designation 
does that that is a loss in retrospect.
    Mr. Perry. But how many do we know that we haven't 
designated that since we didn't designate them they kind of 
fizzled out on their own? What does that look like? What is 
that----
    Ms. Cooke. Well, I don't know the record of debates on the 
FTO designation.
    Mr. Perry. No, no. I am not talking about the record of the 
debates. I am talking about which organizations where we are 
saying, well, we are thinking about designating them in an FTO, 
but if we do it might heighten awareness to them and actually 
make them what they are aspiring to be, so let us hold off. How 
many of those are out there that we know of where we were 
successful by not designating them and then they fizzled out? 
Do we know what that number is?
    Ms. Cooke. I don't.
    Mr. Perry. And I will tell you, with indulgence, Mr. 
Chairman, the context is, is that it seems to me we keep 
waiting for whatever reason, maybe legitimate and maybe not, to 
designate some of these people that go around doing the 
horrific things that they do, and my experience has been from 
at least watching from afar is that we wait too long, they 
metastasize, they become very powerful and then we have got to 
deal with this.
    So if we are looking at this as a model for future 
operations and future decisions, it seems to me we ought to get 
something out of it, which is some kind of standard or trigger 
point or something, by which we say that is enough. We don't 
want it to get--we don't want to have this problem get any 
bigger than it is and then do something as opposed to, well, it 
is all episodic and today it is this one and tomorrow it is 
that one and we are just going to do it; we are going to wing 
it every time, because it seems to me we have been failing at 
winging it. That is my opinion.
    With that, Mr. Chairman, I yield.
    Mr. Poe. I thank the gentleman. The chair recognizes the 
gentleman from New York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. Dr. Ross, you had 
indicated, you were talking about violent non-state actors 
before and you characterized Boko Haram as a violent non-state 
actor. Yet, they use brutal killings of innocent people as a 
method to demonstrate the incapacity of the Nigerian state. 
They terrorize local populations. They engage the military in 
bloody conflict. They seek to destabilize and overthrow the 
government and install an Islamic caliphate. So are they not, 
don't they have a state controlled aspiration?
    Mr. Gartenstein-Ross. Absolutely they do. I use the term 
``violent non-state actor'' because to me it is a catch-all 
term that could include different modes of military operation, 
right. We tend right now in discourse to refer to these groups 
as terrorist groups, which is accurate for most of them, but at 
the same time for Boko it is not just a terrorist group. 
Usually a terrorist group is relatively weak and can't 
militarily engage, can't hold territory. They use terrorism to 
try to provoke a state reaction and rally a community to their 
side.
    Boko, in contrast, was last year at this time the dominant 
force in Borno State in northeastern Nigeria. So they also 
could engage in insurgent warfare, they are also able to seize 
territory and govern. That is why I use that particular term.
    Mr. Higgins. Yes. Well, look at, I think on the whole of 
Africa as a continent it is 55 countries now including South 
Sudan, the newest country in the world. How many failed states 
are in the continent of Africa?
    Mr. Gartenstein-Ross. Off the top of my head and the fact 
that it is hard to tabulate, but a very easy answer is there is 
much more than we should be comfortable with and there is also 
those states which aren't failed but are in danger of failing. 
Tunisia, for example, which nobody would call a failed state is 
fundamentally, existentially threatened by these attacks on its 
tourist industry which could send it into an economic death 
spiral.
    Mr. Higgins. Boko Haram which literally is ``Western 
education is forbidden'' aligns itself with ISIS. ISIS seems to 
have maybe not shifted, but emphasized less emphasis on oil 
revenues, more on territorial gains, because the more territory 
they can control the more they can impose taxes, they can 
preside over countries and using that as leverage to extract 
money to support their bloody deeds all over.
    Given the fragile state of affairs in Africa, particularly 
Central Africa, is Africa a means to provide for access to 
southern Europe?
    Mr. Gartenstein-Ross. Yes. That shouldn't be overstated, 
but it certainly is something that has been discussed in ISIS 
propaganda. The degree to which Europe is able to control the 
flow in by sea is limited, and it seems that already terrorist 
groups to a limited extent are trying to place operatives 
amongst the refugee inflow.
    Mr. Higgins. What is the role, if any, of the African 
Union?
    Mr. Gartenstein-Ross. I believe the African Union is 
charged obviously with a number of things including security. I 
mean, I think when you are looking at Africa there is two 
different models, right.
    Mr. Higgins. Security for whom?
    Mr. Gartenstein-Ross. Well, security for African states. So 
I was----
    Mr. Higgins. All right. What is the population of the 
continent with its 55 countries of Africa?
    Mr. Gartenstein-Ross. Off the top of my head?
    Ms. Cooke. Billion-plus.
    Mr. Higgins. Billion-plus? Billion? How many African Union 
military personnel are engaged, activated?
    Mr. Gartenstein-Ross. It is limited. I mean, you have----
    Mr. Higgins. About?
    Mr. Gartenstein-Ross. Well, in Somalia it is about today, I 
think, sort of reaching 9,000 and 12,000. Then you have the 
Ecowas and Minusma contingents in Mali. The number is in the 
tens of thousands as opposed to----
    Mr. Higgins. Let me ask this. Let me put it to you another 
way. How many stable countries are there in Africa? One, two?
    Ms. Cooke: Many. Many.
    Mr. Gartenstein-Ross. Yes, 30, 40. The majority are stable. 
But I will say one thing to cap this, which is as you said, 
ISIS, its model right now is to seize territory and to hold 
territory. I mean, we have talked about al-Qaeda and how Boko 
went over from al-Qaeda to ISIS. To me, I am more worried about 
al-Qaeda's strategy which seems to be a strategy of progressive 
destabilization.
    So if you look at Libya, for example, ISIS does hold 
territory. And one of the things that makes action, military 
action, against ISIS in Sirte, such a difficult thing for us to 
agree to is that if you were to push ISIS out, al-Qaeda could 
well be the beneficiary. So you retake a city from ISIS without 
actually winning anything for it.
    I am much more concerned about this progressive 
destabilization. Right now you can see Boko tried to control 
Borno State. It got pushed out. Sometimes you can get too 
greedy. But one thing, given population pressures, resource 
pressures including pressures on the water supply in numerous 
countries, one thing that you can bet on in the longer term is 
it is hard to keep these countries stable. So if I am looking 
at it, it is hard to prevent actors like this whose long term 
goal is to destabilize and to capitalize off of that 
destabilization.
    Mr. Higgins. Just a final thought, Mr. Chairman. Look at 
South Sudan. South Sudan became the newest country in the world 
in July 2011. And they were in a civil war with Sudan for 30 
years, and they have become their own state and primarily 
Christian in the south, and now there is tribal battle between 
the Dinkas and the Nuers. And we just saw a Protection of 
Civilians facility attacked by government officials where some 
20,000 people were essentially murdered and another 30,000 
displaced, again, and you talk to officials in South Sudan who 
want to have diplomatic relations with us and they talk about 
how we have to get the U.N. out of there. Well, the only 
organization that is protecting people is the United Nations. 
It is the second largest mission in the world.
    So these corrupt governments, and if you look at the World 
Economic Forum, and you see that they only contribute about 5 
percent of their budgets and they are oil-rich. I mean, South 
Sudan, most of the oil reserves are in the south, but the 
infrastructure is in the north. They have the potential. But 
less than 5 percent goes to education, to health care, to 
infrastructure. I mean, you can't move around South Sudan but 
for about a 2-mile radius within the capital city of Juba. This 
is a major problem. And I don't have a solution, but it 
obviously appears as though whatever strategy is being deployed 
has been an abject failure. It is going to continue to fail and 
so long as there is failed states they are going to serve as a 
breeding ground for groups like this and ISIS.
    Mr. Gartenstein-Ross. If I may, because I know that we are 
over time, I just want to refer back to what I said in my oral 
statement. That is why I think it is so important for us to 
think about our own internal structures for decision making, 
because what you are referring to--look, beating these groups 
militarily is in my view the easy part. The hard part is 
leaving behind something stable and pushing them back as part 
of a coordinated strategy.
    And within government my view is that we are absolutely 
dysfunctional in this regard. Like, we have a lot of trouble 
leaving behind something that is stable and we need to think 
about why that is. And a lot of it maybe comes down to our 
organizational structure is just not suited for a lot of these 
tasks. I believe it can be, but this is absolutely a problem 
and one that we shouldn't push to the side when we are thinking 
about these regions and trying to think of what is a good 
policy. The fact that we have systemically been awful at 
executing, and leaving behind stability has to be a part of the 
discussion and something that we think about as we think about 
our own Government for the 21st century.
    Mr. Higgins: Who is we?
    Mr. Gartenstein-Ross. Well, we would be you all, 
policymakers who are in a very good position to hold hearings 
looking at this. Those of us who are outside of government 
working in the think tanks here and the like also are 
positioned to push the ball forward, but ultimately, to me the 
people who are in the best position to ask these questions and 
to get action on them are elected members of the legislature. 
To me that is really where the center is for the kind of 
governmental reforms we need. I think the White House as well.
    Mr. Poe. The gentleman's time has expired. I have been very 
liberal on this issue, a word I don't use very often. The chair 
will recognize the gentlelady from Florida, Ms. Wilson, who is 
not a member of this subcommittee but is invited to ask 
questions because this is an important issue for her. The chair 
recognizes Ms. Wilson from Florida.
    Ms. Wilson. Thank you so much for having this hearing 
today. It is truly, truly needed. And I have several questions. 
I hope I don't run out of time.
    But when President Buhari won the election in part because 
of his commitment to defeating Boko Haram, he contends that the 
group has been technically defeated. Is Boko Haram stronger or 
weaker since Buhari has taken over? That is number one.
    And number two, because of Nigeria's human rights record--
and we went to Nigeria twice and they were asking for the 
ability to buy arms and weapons from the United States and 
something called the Leahy Law prevents that. How do you get 
around the Leahy Law? How many people do you kill? Because Boko 
Haram according to all national newspapers is number one of the 
most terrorist, they have killed more people than any other 
terrorist group in the world. So when are we able to get the 
right people in the right places to defeat them? This is for 
anyone who can answer.
    Ms. Cooke. I think, and as I said in my remarks, I think 
Boko Haram is very much weaker, but that does not mean that it 
is any less lethal and dangerous for the communities of that 
region, and we have seen that in the horrific attacks of the 
last few weeks. So this is a moment to weaken them even further 
and to eliminate their ability to then regenerate.
    I think the asymmetrical attacks that they now launch that 
is a much more vexing problem because the area is so vast than 
just clearing them off of territory. And that requires very 
nimble responses, much better communication among military 
forces and with the communities and the capacity to move very 
quickly and respond.
    On the Leahy Law, I fully support the principles and the 
logic behind the Leahy Law. I do think there might be, there 
should be room for some flexibility in looking at this so it is 
applied less broadly to entire units. Perhaps focus on 
individuals or smaller units. You look at----
    Ms. Wilson. I don't want to cut you off, but that is the 
answer we got from, actually, the senator himself.
    Ms. Cooke. And as I said, I think----
    Ms. Wilson. That this was something. And then I want to ask 
this. We met with senators here from Nigeria, senators who 
represent different parts of Nigeria, and we met with them in 
Nigeria. And they say that they know where the girls are and 
there is--is this true? Is there any truth about President 
Buhari actively bartering with the appropriate leader of Boko 
Haram in exchange for the girls; that they are held captive in 
a secluded, secure area in the forest? Is there any truth to 
that?
    Ms. Cooke. Well, there may be efforts to connect with the 
group to negotiate some release. No one of the thousands of 
members of Boko Haram that have been captured, of the thousands 
of women and girls that have been captured, no one has seen a 
Chibok girl. And that is just a remarkable mystery. I think 
many people I talk to think that they are broken into much 
smaller groups, married away, and possibly in the northern 
mountains of Cameroon, in Niger and elsewhere. This is just, it 
is a tragic mystery as to where they have gone. I am sure----
    Ms. Wilson. Do you think if one of them, do you think that 
if they were, just one would appear, if they were married away, 
or someone out of all of those girls could have escaped, gotten 
back home or went and told someone that they were a Chibok 
girl, because that is all I am listening for.
    Ms. Cooke. It has not happened.
    Ms. Wilson. And I am looking for a mass grave to see where 
they all are, because this is----
    Ms. Cooke. That has not been found, nor has any----
    Ms. Wilson. That has not been found and they have not been 
found. So what do we do to sensitize the nation, sensitize 
America that this is an issue that is even threatening our 
homeland, because we don't know what Boko Haram has in mind, 
just like we don't know what ISIS has in mind with influencing 
African American boys in our inner cities.
    And all of this Internet activity back and forth, and has 
anyone looked into that? And it is my understanding that there 
is a whole department at the State Department that deals with 
Boko Haram, and there are analysts there who just track Boko 
Haram. Are you aware of that?
    Ms. Cooke. Well, I know that there is an interagency kind 
of cooperation group within the State Department and they have 
expanded their coordination and presence on Boko Haram. I don't 
know the number.
    Ms. Wilson. What about the threat to the homeland, to our 
homeland from Boko Haram? Just like we are all afraid that ISIS 
is going to find its way in the United States, is anyone afraid 
that Boko Haram is going to find its way into our inner cities?
    Ms. Cooke. I don't want to monopolize, but----
    Ms. Friend. Ma'am, I don't----
    Ms. Wilson. Has it been discussed at all in your think 
tanks?
    Ms. Friend. I don't think there is a huge concern about 
that. There of course is, because of the nature of these groups 
where you can get one or two operatives through by hook or by 
crook, it is always a concern. But I think in a rack and stack 
of groups around the world there is less concern that Boko 
Haram poses an immediate direct threat to the U.S. homeland, 
and more concern about the threat they pose to Nigeria and the 
surrounding region. And also, of course, concern about this 
newfound connection with the Islamic State and what that really 
implies and entails.
    One of the members earlier asked me, it was Mr. Higgins, 
asked about the threat to Europe. And of course our European 
allies are very concerned about a threat from ISIS coming 
especially out of Libya, but North Africa in general. So those 
are the immediate threats. But of course from my time inside 
the executive branch, everyone is always on the lookout for the 
metastasization of such groups and for the evolving threat that 
Boko Haram could be posing to us, but at this time right now my 
understanding is it is less of a concern that they pose a 
direct threat to the homeland.
    Ms. Wilson. When does it become an imminent threat, when it 
hits?
    Ms. Friend. No, ma'am. I think when you start seeing, and 
of course this would be in a closed hearing and I don't have 
such information right now, but the kinds of things you would 
see would be direct communications between either foreign 
nationals in the United States or even American citizens with 
either facilitators that are talking to Boko Haram or with Boko 
Haram members themselves. I was never on the intel side so I am 
not as expert in that kind of thing, but when I saw finished 
intelligence that was the kinds of things that you look for.
    Ms. Wilson. All right, Mr. Chair.
    Mr. Poe. I thank the gentlelady. I want to follow up on a 
question she had about what happened to the girls. Have any of 
them been ransomed back to their families?
    Ms. Cooke. Not to my knowledge and not to the knowledge of 
the people I spoke to in Maiduguri and Abuja.
    Mr. Poe. And the other question she had was regarding mass 
graves of these girls. Has there been any evidence that they 
have all been killed or murdered somewhere? I mean, is there 
any evidence of that or is it just like you have mentioned, Ms. 
Friend, that they have gone different ways, all bad ways, but 
they have disappeared in different ways other than this 
murder?.
    Ms. Friend. Yes, Mr. Chairman, my understanding from 
Amnesty International who I think has done the best work on 
looking for mass graves, mass graves have largely been found to 
have adult or teenage males in them. There was one that Amnesty 
identified outside the Giwa barracks, for example, that was 
largely males. Again my speculation is that young girls are 
financially valuable and so they would first try either to keep 
them themselves for domestic purposes or to sell them again 
into trafficking or slavery because they could make money that 
way. But again, that is my speculation. No one knows. It is 
truly a mystery.
    Mr. Poe. Thank you. The chair also has another Member of 
Congress here as a guest, Ms. Jackson Lee from Texas, and the 
chair will recognize her for her questions.
    Ms. Jackson Lee. Mr. Chairman and Ranking Member, let me 
thank you very much. And I am going to probably make comments 
because I think Mr. Gartenstein-Ross, your pointing back to 
policymakers and legislators are very important. There is a 
level of frustration and we have joined a lot of colleagues in 
our frustration for Boko Haram which is particularly a unique 
entity. I went to Boko Haram with a number of members and we 
have since gone back to Nigeria and Borno State, the first 
time, when the girls were first taken, trying to raise the ante 
and before the election of President Buhari and Goodluck 
Jonathan was in office.
    So I just want--I think your title deals with the security 
issue, and I just want just a pointed yes or no of the capacity 
of the Nigerian forces to extinguish Boko Haram.
    Mr. Gartenstein-Ross. I think their capacity is low. But I 
also want to point to the fact that you have multiple nations' 
militaries, of them I assess the Nigerians as being one of the 
less capable forces.
    Ms. Jackson Lee. That is unique, and I don't want to 
interrupt you, because we, over the Bush administration and 
others, have relied upon the Nigerian forces in years back to 
be one of the strongest. So you are now thinking they are 
weakened?
    Mr. Gartenstein-Ross. Well, with the specific militaries 
going after Boko Haram, I think that they are the most 
challenged. One of the problems that the Nigerian military has 
today is corruption and lack of morale have made it a worse 
force than it was a decade ago.
    Ms. Jackson Lee. So President Buhari has not been able to 
keep his word that they would be extinguished by December 2015?
    Mr. Gartenstein-Ross. Oh, unequivocally not. I mean, 
extinguished is a very particular thing. No one would say they 
are extinguished.
    Ms. Jackson Lee. It is a deafening word. As I look at the 
map, I see that the countries of Niger, Benin, and Cameroon, as 
I understand it Boko Haram has seeped over into those areas. Is 
that not accurate?
    Mr. Gartenstein-Ross. Yes.
    Ms. Jackson Lee. They have crossed over the border and 
maybe even to Chad?
    Mr. Gartenstein-Ross. Yes.
    Ms. Jackson Lee. Because the coloration ends around Nigeria 
but they go in and out, do they not?
    Mr. Gartenstein-Ross. Yes, it has carried out major attacks 
in Niger, Chad and Cameroon.
    Ms. Jackson Lee. Right. And so the forces that you were 
speaking of is some of these troops from the surrounding 
countries. Which would you be to see as seem to be the 
strongest?
    Mr. Gartenstein-Ross. I would defer on that in that I would 
want to actually try to do an assessment. But just what I can 
say is that Nigerians are, their military is particularly 
challenged right now, and looking at kind of the battlefield 
others have been better. Perhaps one of my colleagues can speak 
to military capabilities, comparison of the four.
    Ms. Friend. Congresswoman, if I may. You are absolutely 
right that the Nigerians used to be one of the best militaries 
in Africa. There was at least a decade of underinvestment, 
however, in part because of concerns about a military coup. And 
so the forces that met with Boko Haram were incredibly under 
equipped, ill-trained, their morale was very low.
    What Buhari has done since coming into office which he 
hasn't even been in for a year yet and these things take a long 
time, which is part of what I think the U.S. needs to remember 
is a little bit of patience to let them recapitalize. But I 
think one of the things he has done that has been particularly 
inspiring for the foot soldiers is clean out some of the brass 
at the top, say we are going to have a different kind of 
command climate. He is himself a retired major general in the 
army.
    So he has had a real focus on trying to improve morale, 
again personnel payment, and then equipment from sort of all 
sources he can get to build the forces back up again. But it is 
going to take time. So right now it is not the Nigerian 
military that you might remember from years past.
    Ms. Jackson Lee. Let me conclude, and bells are ringing on 
me. Let me conclude, bells are ringing, by saying, and I am 
glad you gave me that opening. I do want to acknowledge the 
strength of President Buhari's words and I would associate with 
his commitment.
    So I would like to leave the record--and I want to thank 
the chairman. I would like to leave the record with indicating 
that the map coloration, the bleeding of Boko Haram is outside 
the borders of Nigeria and so they are terrorizing many of the 
surrounding countries. I have offered that I believe this is an 
African Union issue, a United Nations issue. Comments were made 
about Africa. Most of the world is destabilized. The Mideast, 
it gives me pause to find outside of Israel one stabilized 
country in the Mideast, Jordan, let me not, and there may be 
one or two others, but we are facing an unusual terroristic 
siege, if you will.
    So I guess I would like to leave on the record that Boko 
Haram attention needs to be enhanced. It took great pride in 
associating itself with ISIL. It is as dangerous or worse as my 
colleague has said. And I do believe that we need to put 
pressure on Europe.
    We have the Africa Command, we have the Leahy rule, and we 
need to find some flexibility where we can work with those 
resources and those military resources in a way that says that 
we mean business in the terms of the security of those areas, 
because they will do nothing but grow and continue their siege 
of horrific violence. And I thank you all. With that, Mr. 
Chairman, I yield back.
    Mr. Poe. I thank the gentlelady, and I thank both Ms. 
Jackson Lee and Ms. Wilson for their being here today and also 
their strong interest in this very tragic situation.
    Without objection, the chair will recognize Mr. Keating for 
an additional question.
    Mr. Keating. Thank you, Mr. Chair. Just one final question 
that we had regarding your testimony and just as an overview. 
Over 200 girls missing, a mystery, no trace of them alive or 
killed, no trace whatsoever. That makes me question the extent 
and capabilities of Nigeria's domestic intelligence on the 
ground and U.S. intelligence on the ground. Can you comment on 
our current capabilities and what some of our needs might be 
and both Nigeria's needs in terms of intelligence and our own?
    Ms. Friend. I can take a try at it. So immediately after 
the Chibok kidnapping, the Department of Defense announced that 
it was providing ISR supports which of course is overhead 
surveillance, and now there is also ISR support coming out of 
Cameroon as well. Again that is overhead surveillance.
    On the ground penetration into northern Nigeria by almost 
anyone who is not a resident there or part of a military 
contingent is very thin. Lots of NGOs can't get in. And so my 
sense has always been that our on the ground intelligence has 
been really reliant on the Nigerians and on other sources, and 
that most of what we do and most of our support to Nigeria has 
been through ISR which is a huge technical capability that they 
of course do not have.
    In terms of intelligence sharing, again what we share has 
to be capitalized on by the Nigerians.
    Mr. Keating. Thank you. And I would just say that given 
Boko Haram's allegiance to ISIL, it is even more important, I 
think, the U.S. to have more active intelligence on the ground. 
Thank you very much.
    Mr. Poe. I thank the gentleman. I thank all y'all for being 
here today. All y'all is plural to you all in case you are 
wondering. But thank you for the work that you do, and there 
may be other questions that members of the committee have for 
you more specific and they will file those questions within the 
next 5 days and we would appreciate your prompt response to 
those questions. And thank you for your expertise in this very 
tragic area. Thank you very much. The committee is adjourned.
    [Whereupon, at 3:19 p.m., the subcommittee adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     <F-dash>\<n-iden-3><pound><box> <F-dash><func.-of><Register>\

     Material submitted for the record by the Honorable Ted Poe, a 
   Representative in Congress from the State of Texas, and chairman, 
         Subcommittee on Terrorism, Nonproliferation, and Trade
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
